WAIVER

Supreme Court, U.S.
FILED

OCT 2 1 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-486

DONNETT M. TAFFE, PERSONAL REPRESENTATIVE OF THE ESTATE OF STEVEN JEROLD THOMPSON, DECEASED

GERALD E. WENGERT. IN HIS INDIVIDUAL CAPACITY, SCOTT ISRAEL, IN HIS INDIVIDUAL CAPACITY, AND SCOTT ISRAI

v.
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:

111 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

SCOTT ISRAEL, IN HIS OFFICIAL CAPACITY

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

October 15, 2019

(Type or print) Name

Louis Reinstein
[:] Mr.

Firm

1:] Mrs.

❑ Miss

Kelley Kronenberg

Address

10360 West State Road 84

City & State
Phone

❑ Ms.

Ft. Lauderdale, Florid

954-370-9970

Zip
Email

33324

Ireinstein@kklaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Barbara Heyer, Esq., civilrtstaW@hotmail.com

RECEIVED
OCT 2 9 2019
EURTEMOE'COSRcr,L5r.

